SEMIANNUAL REPORT
to the United States Congress




                         October 1, 2012–March 31, 2013
                                            Report # 47
Westerly, RI
Table of Contents
From the Inspector General                                                         ii
OIG Profile                                                                       1
Significant Activities: Audits, Inspections and Evaluations, and Investigations   5
Actions to Continuously Improve OIG Operations                                    25
OIG Organization                                                                  31
Appendices
    Appendix 1      Fiscal Year 2013 Performance Measures                         34
    Appendix 2      Questioned Costs (Audits)                                     35
    Appendix 3      Funds Put to Better Use (Audits)                              36
    Appendix 4      Audit and Evaluation Reports and Testimony                    37
    Appendix 5      Recommendations for Which Corrective Action Not
                     Complete (Audits)                                            39
    Appendix 6      Recommendations for Which Corrective Action Not
                     Complete (Evaluations)                                       42
    Appendix 7      Review of Legislation, Regulations, and Major Policies        44
    Appendix 8      Peer Review Results                                           46
    Appendix 9      Glossary of Terms, Acronyms, and Abbreviations                47
    Appendix 10     Reporting Requirements Index                                  49
OIG Mission and Contact Information                                               50




                     10 G Street, NE, Suite 3W-300, Washington, DC 20002            i
                           From the Inspector General




                    National Railroad Passenger Corporation
                          Office of Inspector General




Pursuant to the Inspector General Act of 1978, as amended, I am pleased to provide the
Amtrak Office of Inspector General Semiannual Report to the United States Congress for
the six months ending March 31, 2013. This report highlights our significant audit,
evaluation, and investigative accomplishments that help Amtrak accomplish its
strategic goals and support congressional oversight. It also describes actions we have
taken to continue improving our operational performance.

Significant Events
The last reporting period proved to be a highly eventful period for Amtrak, its Board of
Directors, and our office. Before highlighting our work I want to address some of those
events. First, I want to acknowledge the service of Tom Carper, who in March 2013
completed his service as Chairman of Amtrak’s Board of Directors. During Chairman
Carper’s tenure, Amtrak made important strides forward, such as setting revenue and
ridership records. Chairman Carper also oversaw Amtrak’s development of a new
strategic plan to guide the corporation’s efforts to improve, among other things, its
financial and operational performance. On a personal note, I sincerely thank the
Chairman for his support of our office and the direct support he gave to me as a new
Inspector General. His door was always open and his advice was valued.

My thanks also go to Nancy Naples, who also completed her service on the Board in
March 2013. Her contributions were many. Most noteworthy was her role as chair of the
Personnel Committee that oversaw the development of Amtrak’s newly announced
(March 2013) compensation program—Total Rewards. My personal thanks to her as
well for freely sharing her time and insights in helping me fulfill my responsibilities.

Further, I look forward to a strong working relationship with the new Chairman Tony
Cosia, new Vice Chairman Jeff Moreland, and the other Board members to include the
ii                          10 G Street, NE, Suite 3W-300, Washington, DC 20002
                                                       From the Inspector General



two newest members, Christopher Beall and Yvonne Burke, who joined the Board in
January 2013.
Turning to our office specifically, I am proud to report that our offices of Audits and
Investigations successfully underwent external peer reviews. All Offices of Inspector
General receive peer reviews every three years by other Offices of Inspector General in
order to obtain an independent assessment of the quality of operations and compliance
with federal audit and investigative standards. Congratulations to all Office of
Inspector General staff on these significant accomplishments.

Our Office of Audits was the subject of a Council of the Inspectors General on Integrity
and Efficiency peer review during this reporting period by the Tennessee Valley
Authority Office of Inspector General. The review team determined that the system of
quality control for our audit function has been suitably designed and complied with to
provide reasonable assurance of performing and reporting in conformity with
applicable professional standards in all material respects. Accordingly, we received a
“pass” rating, and no recommendations for improvement were made.

Our Office of Investigations was also the subject of a peer review during this reporting
period by the Nuclear Regulatory Commission Office of Inspector General. The team
concluded that the system of internal safeguards and management procedures for our
investigative function in effect for the year ending February 28, 2013, was in compliance
with the quality standards established by the Council of the Inspectors General on
Integrity and Efficiency and the Attorney General’s Guidelines. These safeguards and
our procedures provide reasonable assurance of conforming to professional standards
in the conduct of our investigations.

Significant Accomplishments
Over the last six months, our audit and evaluation offices continued to be productive.
We issued 10 reports with a total of 23 recommendations, including financial
recommendations totaling $8.3 million. Our investigative work resulted in one
indictment, three convictions, and $884,862 in fines, restitutions, recoveries, and cost
avoidance. Some examples are discussed below.

      One of our key areas of focus is identifying ways to improve Amtrak’s
      governance activities. Our audit, evaluation, and investigative work identified a

                     10 G Street, NE, Suite 3W-300, Washington, DC 20002                    iii
From the Inspector General



        number of opportunities to improve those activities. For example, I testified
        before the Committee on Transportation and Infrastructure, House of
        Representatives, on November 28, 2012, on our work related to Amtrak
        improvement initiatives. My central message was that Amtrak’s initiatives hold
        great potential for making improvements to its operations and financial
        performance. However Amtrak’s overall management control environment is
        weak and the initiatives’ ultimate success will depend on sustained attention and
        effective implementation.

        Our investigative work in the governance area identified various violations of
        corporate policies and made recommendations to strengthen controls in these
        areas. Of particular note was our investigation of a questionable claim that
        helped Amtrak to reduce a settlement by $875,000.

        In the area of train operations, we brought to a close a body of work reviewing
        incentive and service payments to host railroads. The cumulative effect of this
        work has yielded significant benefits. Over time, we have identified over
        $91.3 million in overpayments to host railroads. As a result, Amtrak has realized
        more than $38.4 million in savings from settlements with host railroads. This
        amount includes over $19 million in cash or credits and more than $19.4 million
        from a release of claims for on-time-performance incentives. Additionally,
        Amtrak has the opportunity to potentially recover another $23.8 million in
        overpayments. Lastly Amtrak has made improvements to its invoice review and
        payment processes that should help to reduce overpayments.

        In the human capital management area, our investigative office reported on
        issues such as, employee embezzlement and grand theft, illegal drug use, false
        statements on employment applications, improper reporting of time and
        attendance, and ethics violations. These reports led to employee criminal
        convictions, terminations, suspensions and improved management controls. We
        also issued an audit report that identified best practices to assist Amtrak in
        developing needed policies and procedures over the approval and use of
        overtime.

        In the safety and security focus area our inspections and evaluations office
        reported that Amtrak had made progress in implementing positive train control,

   iv                        10 G Street, NE, Suite 3W-300, Washington, DC 20002
                                                               From the Inspector General



        but significant challenges remain. Amtrak is attempting to mitigate the risks
        posed by current challenges to positive train control implementation in various
        ways, but overcoming some of these challenges by the end of 2015 will require
        increased attention and emphasis.

Actions Taken to Continually Improve OIG Operations
Key efforts to continuously improve our operations included revising our strategic
plan.1 We also summarized in a special report, the achievement of our effort to
transform our office to function as a mainstream Office of Inspector General and
position us to ultimately achieve the goal of being a model office. This complex effort
began in fiscal year 2010 when I was appointed and included engaging the National
Academy of Public Administration to conduct an organizational assessment. 2

We and Amtrak continue to face an increasingly constrained federal budget
environment. Our office’s and the corporation’s effective and efficient stewardship over
resources remain paramount. We will continue to identify ways to operate more
economically and efficiently. At the same time, we will work to help Amtrak meet its
stewardship responsibilities and support Congress in its oversight responsibilities. As
Amtrak Inspector General, this is my commitment to you.




Ted Alves
Inspector General



1
 See the complete Strategic Plan at (http://www.amtrakoig.gov/sites/default/files/reports/strategic_plan2.pdf).
2
 The report can be found at (http://www.amtrakoig.gov/sites/default/files/reports/napa_report_oig-sp-2013-
005.pdf)
                           10 G Street, NE, Suite 3W-300, Washington, DC 20002                                    v
                                                           Lafayette, LA




vi   10 G Street, NE, Suite 3W-300, Washington, DC 20002
                                                                                                                OIG Profile




OIG Profile
Authority, Mission, Vision, and
Focus Areas
Authority
The Inspector General Act of 1978 (Public Law 95-452, 5 U.S.C. Appendix 3), as
amended in 1988 (P.L. 100-504), established the Office of Inspector General (OIG) for
Amtrak to consolidate existing investigative and audit resources into an independent
organization headed by the Inspector General to promote economy, efficiency, and
effectiveness; and to detect and prevent fraud, waste, and abuse. Subsequently, the
Inspector General Reform Act of 2008 (P.L. 110-409) amended and strengthened the
authority of the Inspectors General.

Mission
To provide independent, objective oversight of Amtrak’s programs and operations
through audits, inspections, evaluations, and investigations focused on recommending
improvements to Amtrak’s economy, efficiency, and effectiveness; preventing and
detecting fraud, waste, and abuse; and providing Congress, Amtrak management, and
Amtrak’s Board of Directors with timely information about problems and deficiencies
relating to Amtrak’s programs and operations.

Vision
The Amtrak OIG will operate as a model OIG, generating objective and sophisticated
products that add value. Utilizing modern infrastructure and effective support systems,
and following efficient, disciplined processes that meet the standards of the
accountability community, our diverse and talented team will work professionally with,
but independently from, Amtrak management (See OIG Strategic Plan Fiscal Years
2013-2017).


      Amtrak Office of Inspector General | Semiannual Report to Congress, Number 47 | October 1, 2012–March 31, 2013   |   1
OIG Profile




   Focus Areas
   We concentrate our audits, inspections and evaluations, and investigations work on
   eight focus areas. Depending on the work completed during a semiannual period, we
   may report on issues in one or more of these focus areas listed below. 3

   The focus areas are:

   Governance. Corporate governance and risk management processes include a system of
   management control encompassing policies, processes, and people, which serves the
   needs of shareholders and other stakeholders, by directing and controlling management
   activities with good business savvy, objectivity, accountability, and integrity.

   Acquisition and Procurement. Acquisition and procurement activities for goods and
   services encompass procurement policies, procedures, and practices across acquisition
   and procurement phases of planning, project selection, and contract award,
   implementation, and closeout.

   Information Technology. Information technology management encompasses processes,
   policies, and procedures acquiring and using information technology tools to improve
   labor and asset productivity and deliver safe and reliable customer service.

   Train Operations and Business Management. Train operations and business
   management encompasses all activities associated with operating Amtrak’s passenger
   service to include delivering customers safe and cost-effective service.

   Human Capital Management. Human capital management encompasses the
   development and implementation of human capital policies, procedures, and practices
   across the corporation.

   Safety and Security. Safety and security encompasses all programs and activities
   related to the safety and security of employees and the train riding public.

   American Recovery and Reinvestment Act of 2009. Oversight of American Recovery
   and Reinvestment Act funds encompasses all activities that benefited from the
   3
    See Annual Audit and Inspections and Evaluations Plan FY 2013 for complete definitions of these focus areas
   http://www.amtrakoig.gov/sites/default/files/reports/aie_plan_final_oct22.pdf.
   2          Amtrak Office of Inspector General | Semiannual Report to Congress, Number 47 | October 1, 2012–March 31, 2013
                                                                                                                OIG Profile



$1.3 billion grant from the Federal Railroad Administration. We are providing Congress
with information on Amtrak’s use of these funds. We will complete our work in this
focus area during the next semiannual period.

Asset Management. Asset management encompasses all activities related to the
utilization and maintenance of Amtrak’s assets to include train sets, support equipment,
inventory and real property.




      Amtrak Office of Inspector General | Semiannual Report to Congress, Number 47 | October 1, 2012–March 31, 2013   |   3
                                                                                                Westport, NY




4   Amtrak Office of Inspector General | Semiannual Report to Congress, Number 47 | October 1, 2012–March 31, 2013
                                                                                          Significant Activities




Significant Activities:
Audits, Inspections and
Evaluations, and Investigations
During this reporting period, we issued one testimony
statement, nine audit reports, one evaluation, and provided
15 investigative summaries to management. During the next
six months, the Offices of Audits and Inspections and
Evaluations expect to complete work in a number of our work
focus areas. (Access the full audit and evaluation reports and
testimony statements through our website.)

Governance
AMTRAK IMPROVEMENT INITIATIVES:
Sustained Attention and Effective
Implementation Keys to Success
(OIG-T-2013-001, November 28, 2012)
On November 28, 2012, the Inspector
General testified on our reports and
recommendations related to improving
Amtrak’s operational and financial
performance and the actions Amtrak has
taken in response to them. The reports
contribute to one of Amtrak’s strategic goals
— achieving financial and organizational
excellence.



      Amtrak Office of Inspector General | Semiannual Report to Congress, Number 47 | October 1, 2012–March 31, 2013   |   5
Significant Activities



   The Inspector General noted that over the last couple of years, the Board of Directors
   and Amtrak management have taken several steps to improve Amtrak’s operational,
   financial, and customer-service performance. The Board of Directors plays a key role in
   ensuring that the corporation accomplishes the goals established in the Passenger Rail
   Investment and Improvement Act of 2008 (PRIIA) in an efficient and effective manner.
   The Amtrak Board of Directors has also now been able to reconstitute two important
   Board committees: the Audit and Finance Committee and the Personnel Committee.
   The two reconstituted committees have provided the process and structure to help the
   Board conduct oversight and ensure that management is held accountable for
   instituting disciplined processes and achieving financial and operational goals. With
   this structure, the Board now has greater capacity to fulfill its governance
   responsibilities over Amtrak programs and operations.

   Similarly, examples of key actions by management include Amtrak’s development of
   the 2011-2015 Strategic Plan that was issued in November 2011. Amtrak notes that the
   plan provides a comprehensive roadmap for evolving Amtrak into a company more
   focused on the bottom line, and whose employees’ roles and efforts are in sync with
   common goals. The plan sets forth (1) Amtrak’s vision, values, and leadership
   philosophy; (2) factors that could affect goal achievement; (3) corporate strategies; and
   (4) business line strategic plans. The organizational realignment initiative that is the
   focus of this hearing is directly linked to the implementation of Amtrak’s strategic plan.
   Other key management actions include hiring senior executives to lead improvements
   in human capital management and information technology.

   The corporation is in the early stages of implementing many of these initiatives. Our
   recent work shows that sustaining and effectively implementing these initiatives has the
   potential to significantly reduce Amtrak’s reliance on federal support. Because
   Amtrak’s overall management control environment is weak, using a risk management
   approach to improve management controls is also needed to help Amtrak focus on
   improving financial results.




   6        Amtrak Office of Inspector General | Semiannual Report to Congress, Number 47 | October 1, 2012–March 31, 2013
                                                                                          Significant Activities



Disclosing Fraudulent Activities Related To Purchasing Train Tickets
November 2012 (Investigations)

Our investigative work disclosed that two individuals used numerous stolen credit
cards to purchase Amtrak train tickets in Greensboro, NC. The scheme involved using
Amtrak’s Reservation Call Center to make reservations, retrieving the tickets at a
Quicktrak machine, and then quickly canceling the reservations after boarding the train.
The individuals relocated to New York where they were arrested. Court proceedings
are pending.

Quality Control Review: Amtrak’s Independent Public Accountant Met Applicable
Auditing Standards for the Fiscal Year 2012 Audit of the Consolidated Financial
Statements (Audit Report No. OIG-A-2013-004, February 1, 2013)

On July 17, 2012, the corporation contracted with the independent certified public
accounting firm of, Ernst & Young, LLP to audit Amtrak’s consolidated financial
statements for the year ended September 30, 2012. In accordance with Inspector General
Act of 1978, as amended, we monitored the audit activities of Ernst & Young to help
ensure audit quality and compliance with auditing standards.

Our review disclosed no instances in which Ernst & Young did not comply, in all
material respects, with generally accepted government auditing standards. However,
we did not perform sufficient procedures to express assurance on Ernst & Young’s
audit work over Amtrak’s information systems.

In its audit of Amtrak’s consolidated financial statement, Ernst & Young concluded that
the consolidated financial statements fairly presented, in all material respects, the
consolidated financial position of Amtrak and its subsidiaries at September 30, 2012,
and the consolidated results of their operations, and cash flows for the year then ended
in conformity with generally accepted accounting principles. While Ernst & Young
found two significant deficiencies related to the documentation and analysis of capital
leases and the calculation of deferred tax, it did not find the weaknesses to be material.
Additionally, Ernst & Young found that the deficiencies identified by another certified
public accounting firm in the fiscal year 2011 audit had been remediated during fiscal
year 2012.



      Amtrak Office of Inspector General | Semiannual Report to Congress, Number 47 | October 1, 2012–March 31, 2013   |   7
Significant Activities



   Our involvement in the fiscal year 2012 audit process consisted of reviewing Ernst &
   Young’s report and related documentation, monitoring audit activities, reviewing
   auditor independence and qualifications, attending meetings, and reviewing audit
   planning, testing, and summary workpapers and reports, except for Ernst & Young’s
   audit work over Amtrak’s information systems. In that case, we limited our
   involvement to reviewing planning and summary documents and verifying that audit
   workpapers were reviewed and approved. Our monitoring activities, as differentiated
   from an audit in accordance with generally accepted government auditing standards,
   were not intended to enable us to express an audit opinion.

   Need to Clarify Policies Related to the Employee Acceptance of Gratuities
   February 2013 (Investigations)

   We reported to management the results of our investigation of alleged abuse of
   gratuities related to professional sports teams’ charter train contracts. We found no
   wrongdoing, but did identify a need to clarify and emphasize corporate policy on
   gratuities to employees and to consider referencing these policies in future contracts.
   Management agreed with our recommendations.

   Failure to Obtain Required Permits in a Timely Manner
   February 2013 (Investigations)

   We reported on the actions of two managers in the Environmental Department related
   to the acquisition of environmental permits. The investigation focused on the deliberate
   failure of these managers to obtain required state and federal permits before proceeding
   with a large demolition project at the Penn Coach Yard in Philadelphia, and their
   subsequent attempts at a cover up of their actions. The failure to obtain necessary
   permits potentially exposed Amtrak to substantial criminal and civil penalties for
   possible violations of the Federal Clean Water Act and related state statutes and
   regulations. The Pennsylvania Department of Environmental Protection ultimately
   issued the permits, but this occurred twenty-one months after the demolition began. We
   found that the two managers manipulated data in order to improperly circumvent the
   permit requirement. They also tried to cover up their actions by attempting to influence
   a subordinate who was auditing the project. The two officials also attempted to mislead
   our investigators and to influence a subordinate’s cooperation with the investigation.


   8        Amtrak Office of Inspector General | Semiannual Report to Congress, Number 47 | October 1, 2012–March 31, 2013
                                                                                          Significant Activities



The company took administrative personnel actions and agreed to make changes to
policy and procedures.

Misuse of General Services Administration Fuel Cards
March 2013, (Investigations)

Our joint investigation with the General Services Administration OIG disclosed that an
Engineering Department employee misused credit cards assigned to Amtrak vehicles.
Although the matter was declined for prosecution, management agreed with our
observations and recommendations for improving internal controls over the use of fuel
cards.

Employee’s Injury Claim Was Fraudulent
(Investigations)

In 2008, an Amtrak employee filed a court complaint that she had been injured in an on-
duty incident that occurred in 2005. The complainant maintained that Amtrak was
negligent under the Federal Employers Liability Act. Subsequently, the complainant,
through her attorney, made a settlement demand of $1.6 million. Early settlement
negotiations resulted in the employee reducing that demand to $1.2 million. In March
2012 we initiated an investigation into allegations that the employee’s injury claim was
fraudulent. Our investigation determined that during the time the employee was
receiving benefit payments because of her alleged injuries and inability to work, she
was actually employed by another company doing a variety of physically demanding
jobs. After being presented with the results of our investigation, Amtrak saved $875,000
from the amount of $1.2 million the employee was demanding before our investigation.

Audit of Grant Agreement: Next Generation Equipment Committee Materially
Complied with Terms of the Grant Agreement (Audit Report No. OIG-A-2013-012,
March 27, 2013)

The Next Generation Equipment Committee (the Committee) materially complied with
the criteria governing grant expenditures, met the deliverables contained in the grant
provisions, and has a generally sound system of internal controls to govern its activities.
However, we did identify a few relatively minor instances, totaling $11,345, in
unsupported or questioned costs for services billed by one contractor. We also
identified some opportunities to strengthen internal controls to help reduce
      Amtrak Office of Inspector General | Semiannual Report to Congress, Number 47 | October 1, 2012–March 31, 2013   |   9
Significant Activities



   vulnerabilities to waste or abuse. These opportunities are in the areas of support service
   agreement approval, timely review and payment of invoices, and processing of grant
   reimbursement requests.
   We recommended that the Committee seek reimbursement for the questioned costs,
   obtain documentation for the unsupported costs, and take action to improve certain
   internal controls. The Amtrak Acting Chief Financial Officer and the Committee’s
   Finance Subcommittee Chairman concurred with our recommendations.

   Letter to Chairman Issa On OIG’s High-Priority Recommendations for Improving
   Efficiency at Amtrak (Requested by Representative Darrell Issa, Chairman of the
   Committee on Oversight and Government Reform, House of Representatives)
   We were asked to identify our office’s five highest-priority short-term
   recommendations to improve agency efficiency and reduce waste. We identified
   recommendations associated with our reports on Amtrak’s fiscal year 2010 Fleet
   Strategy, multiple audits of host railroad invoices submitted to Amtrak for costs and on-
   time performance incentives, and the use of funds from the American Recovery and
   Reinvestment Act (ARRA) of 2009.
   We were also asked to identify our five highest-priority long-term recommendations to
   improve agency efficiency and reduce waste. We identified recommendations
   associated with our reports on mechanical maintenance, human capital management,
   training and employee development practices, and the implementation of an enterprise
   risk management process for the entire organization.4

   On-going Work—Governance
   Business Case Development and Capital Planning – Our objective is to evaluate
   Amtrak’s capital and key investment planning process. Specifically, we will
   (1) determine the extent to which Amtrak uses best practices for business case
   development, and (2) evaluate Amtrak’s process for selecting, approving, and funding
   capital projects and key investments.




   4
    See the complete response at
   http://www.amtrakoig.gov/sites/default/files/reports/issa_cummings_response_12_19_12.pdf
   10        Amtrak Office of Inspector General | Semiannual Report to Congress, Number 47 | October 1, 2012–March 31, 2013
                                                                                          Significant Activities



Data Analytics Purchase to Payment – Our objectives, as they relate to the purchasing
and payment processes, are to (1) assess the effectiveness of management controls in the
corporation’s business processes, (2) identify opportunities to control risks and improve
efficiency and effectiveness of business operations; and (3) prevent, detect, and deter
instances of fraud, waste and abuse.

Capital Program Management – Our objectives are to determine the adequacy of
Amtrak’s capital program management practices to include policies and procedures for
managing its capital programs in the areas of estimating, scheduling, oversight, and
project close-out.

Top Management and Performance Challenges – Our objectives are to (1) identify
Amtrak’s top management and performance challenges, and (2) assess the ongoing and
planned management initiatives to address those challenges.

Acquisition and Procurement
Acela Car Purchase: Questioned Costs Identified in Price Proposal
(Audit Report No. OIG-A-2013-002, December 4, 2012)
A potential contractor’s price proposal contained amounts that, in some cases, were not
based on well-supported and/or reasonable cost data. As a result, we questioned those
costs.

The price proposal also included Comments to the General Provisions and to the
Supplementary General Provisions in the request for proposal. We did not analyze these
comments to determine their impact upon pricing, but observed that the comments
suggested modifications to significant terms and conditions in the request for proposal,
including the audit provision.

We made two recommendations aimed at helping lower the negotiated contract price
and retaining the audit provision in the terms and conditions of the final contract.
Management agreed with our recommendations and, considering our work and other
factors, decided to forgo purchasing the additional Acela cars. Based on this
information, a portion of the cost avoidance is attributable to our report.



      Amtrak Office of Inspector General | Semiannual Report to Congress, Number 47 | October 1, 2012–March 31, 2013   |   11
Significant Activities



   Controls Can Be Improved to Detect Overbilling by Contractors
   January 2013 (Investigations)
   In January 2013 we reported to management the results of our investigation into
   overbilling and other contract irregularities by a contractor which provides Auto Train
   loading and unloading services. A diligent employee disallowed more than $400,000 in
   inflated billings made by the contractor over an eight-year period. We found no
   criminal wrongdoing, but did make five specific policy and procedure
   recommendations which are currently under review by Amtrak management.

   Information Technology
   On-going Work
   Information Technology (IT) Infrastructure Initiative – Our objectives are to
   determine whether the IT Department has (1) developed an adequate strategic plan and
   contract design for acquiring IT services, (2) established adequate processes and
   controls to accomplish contract administration and oversee performance of service
   providers, and (3) received services that meet the contract terms and conditions.

   Train Operations and Business Management
   Amtrak Invoice Review: Undetected Inaccuracies Resulted in Overpayments (BNSF)
   (Audit Report No. OIG-A-2013-006, February 15, 2013)

   BNSF invoices to Amtrak for on-time-performance payments from July through
   December 2006 were not consistently accurate. The invoices were not accurately
   calculated in accordance with the operating agreement between Amtrak and BNSF. The
   invoice inaccuracies went undetected and Amtrak overpaid BNSF over $2.1 million for
   the 6-month period. The corporation has recently completed actions that were
   responsive to our recommendations to improve the review process. This should help
   identify invoice errors, reduce overpayments and eliminate the need to use resources to
   seek overpayment recoveries. We recommended that Amtrak’s Acting Chief Financial
   Officer take action to recover the $2,115,440 in overpayments.




   12       Amtrak Office of Inspector General | Semiannual Report to Congress, Number 47 | October 1, 2012–March 31, 2013
                                                                                          Significant Activities



In commenting on a draft of the report, management stated that the report provides
useful information on which Amtrak management can take action. Management also
indicated its intent to enter into appropriate conversations with BNSF and will pursue
any amounts that are recoverable under the law and within the terms of the applicable
operating agreement between Amtrak and BNSF. Additionally, management stated that
it remains committed to making valuable improvements to the host railroad invoice-
administration review process, and has progressively improved the invoice-review
process.

Amtrak Invoice Review: Internal Control Weaknesses Lead to Overpayments
(Southern Pacific) (Audit Report No. OIG-A-2013-007, March 13, 2013)

Southern Pacific’s invoices to Amtrak for services from January 1997 through December
1999 were inaccurate in seven of the 19 service categories reviewed. The inaccuracies
included charges that were not adequately supported, amounts that were not
specifically allowed by the amendment agreement, and duplicated services. As a result,
Amtrak overpaid the host railroad $1,205,626 for services for the 36-month period.
These overpayments are in addition to about $107,000 in errors detected by Amtrak’s
invoice-review process.

The billing inaccuracies went undetected because, as previously reported, Amtrak did
not have in place an adequate invoice-review process during that period. We
recommended improvements to the process, including new invoice-review policies and
procedures. Earlier this year, we reported that Amtrak completed implementing those
recommendations. We believe that the actions Amtrak has taken, if sustained, should
improve the review process and help ensure that invoice errors are detected before
payments are made. We recommended and Amtrak’s Acting Chief Financial Officer
agreed to take action to recover the $1,205,626.




      Amtrak Office of Inspector General | Semiannual Report to Congress, Number 47 | October 1, 2012–March 31, 2013   |   13
Significant Activities



   Amtrak Invoice Review: Internal Control Weaknesses Lead to Overpayments (BNSF)
   (Audit Report No. OIG-A-2013-008, March 26, 2013)

   BNSF invoice charges generally complied with those allowed in the operating
   agreement for use of tracks, facilities, and services provided to Amtrak. However, the
   amounts invoiced by BNSF were not always accurate and contained errors that were
   not detected by Amtrak. We identified approximately $97,000 in overpayments for
   six service categories audited. For those service categories, invoice errors went
   undetected because Amtrak’s host railroad invoice administration group did not have
   an adequate invoice-review process in place during the audit period.

   Additionally, for a seventh service category—station utility—Amtrak continued to pay
   BNSF for utility costs at as many as 16 stations while it was also directly paying the
   utility service providers for the same services. This occurred because Amtrak’s host
   railroad contract management group did not have a timely process for identifying that
   Amtrak took over direct payment of utilities and revising the operating agreement to
   reflect the change. Because the operating agreements were not revised, Amtrak did not
   have an accurate basis on which to review the invoices. We identified overpayments of
   more than $1.3 million for station utilities costs.

   We recommended that Amtrak’s Acting Chief Financial Officer take action to recover
   over $1.4 million in overpayments identified in this report and that Amtrak’s Chief
   Transportation Officer direct the development and implementation of procedures to
   improve its controls over monitoring station utility operational changes.

   In commenting on a draft of this report, management stated that the report provides
   useful information on which Amtrak management can take action. Management also
   indicated its intent to enter into appropriate conversations with BNSF to pursue any
   amounts that are recoverable under the law and within the terms of the applicable
   operating agreement between Amtrak and BNSF. Additionally, Amtrak will work to
   implement improved procedures that provide better internal communications for
   changes affecting host railroads’ station utilities.




   14       Amtrak Office of Inspector General | Semiannual Report to Congress, Number 47 | October 1, 2012–March 31, 2013
                                                                                          Significant Activities



Amtrak Invoice Review: Internal Control Weaknesses Lead to Overpayments (Metro
North) (Audit Report No. OIG-A-2013-010, March 27, 2013)

Metro North invoice amounts were not consistently accurate. The inaccuracies were
found in invoices that were not calculated in accordance with the operating agreements
between Amtrak and Metro North. The operating agreements serve as the basis for
determining incentive payments to host railroads. Our review of six Metro North
invoices from the 72-month period (January 2005 through December 2010) disclosed
invoice inaccuracies of almost 19 percent or more than $150,900 of the more than
$804,000 of invoices reviewed. Metro North agreed with the methodology of applying
the 19 percent error rate to all invoices for the audit period, because the types of errors
found were consistent over the selected months reviewed. Doing so resulted in
estimated invoice inaccuracies totaling about $1,223,000 for the period. Amtrak’s
invoice-review process did not detect any errors prior to making the on-time-
performance payments for this period.

In commenting on a draft of this report, management stated that the report provides
useful information on which Amtrak management can take action. Management also
indicated its intent to enter into appropriate conversations with Metro North to pursue
any amounts that are recoverable under the law and within the terms of the applicable
operating agreement between Amtrak and Metro North.

Amtrak Invoice Review: Internal Control Weaknesses Lead to Overpayments (Union
Pacific) (Audit Report No. OIG-A-2013-011, March 28, 2013)

Union Pacific’s invoices to Amtrak for on-time-performance incentives and service
payments from June 1995 through December 1999 were not always accurate or
adequately supported. The invoice inaccuracies went undetected, and Amtrak overpaid
Union Pacific by $3.2 million for on-time-performance incentives for the 55-month
period.

We also identified inaccurate invoices for services amounting to $79,069, and an invoice
credit due Amtrak for $46,389 that has not been collected. These amounts are in
addition to about $41,000 in on-time-performance incentives and services errors
detected by Amtrak’s invoice-review process.



      Amtrak Office of Inspector General | Semiannual Report to Congress, Number 47 | October 1, 2012–March 31, 2013   |   15
Significant Activities



   Amtrak management agreed with our recommendations to recover the $3.2 million and
   stated that the Managing Deputy General Counsel, on behalf of Amtrak’s
   Transportation and Finance departments, will pursue any amounts that are recoverable
   under the law and within the terms of the applicable operating agreement between
   Amtrak and Union Pacific.




   On-going Work
   Food and Beverage Best Practices – Our objective is to make a comparative analysis
   between Amtrak’s business process for providing food and beverage service and best
   practices used by others to deliver the same or similar service. Using that analysis, we
   will assess the effects of Amtrak using different food and beverage service business
   processes from a cost, revenue, operations, and service perspective.




   16       Amtrak Office of Inspector General | Semiannual Report to Congress, Number 47 | October 1, 2012–March 31, 2013
                                                                                          Significant Activities




Human Capital Management
Employee Charged with Embezzlement and Grand Theft
October 2012 (Investigations)

Our investigation disclosed that an Assistant Conductor failed to remit cash and credit
card payments for 414 tickets valued at $24,908. The employee resigned when presented
with notice of a formal administrative hearing. In October 2012 an arrest warrant was
issued for the employee on charges of embezzlement and grand theft. The former
employee is presently a fugitive.

Employee Dismissed for Theft and Illegal Drug Use at Work
November 2012 (Investigations)

We investigated allegations that an Amtrak machinist stole company property and
smoked marijuana at work. A small amount of Amtrak property was recovered during
a search of the employee’s home. The employee initially agreed, but later declined, to
take a drug test. The employee was dismissed after a formal administrative hearing.

Two Employees Terminated for False Statements
November 2012 (Investigations)

Our investigation of two employees, both of whom worked in positions of significant
trust disclosed that one employee afforded preferential treatment to the other
employee, his subordinate, by approving excessive amounts of overtime. The two
employees also signed false affidavits related to their joint purchase of a residence,
representing that they both would reside in the home and that they were first time
home buyers. The false statements enabled the employees to fraudulently benefit
financially. Both employees made repeated false statements and representations to our
investigators. Both employees were terminated and the matter is currently under
consideration by prosecution authorities.




      Amtrak Office of Inspector General | Semiannual Report to Congress, Number 47 | October 1, 2012–March 31, 2013   |   17
Significant Activities



   Former Employee Sentenced for Embezzlement
   December 2012 (Investigations)

   Our prior semiannual report noted that our investigation showed an employee had
   embezzled funds by falsifying travel vouchers and manipulating Amtrak travel card
   and purchase cards. The investigation resulted in an arrest warrant and a criminal
   felony charge in Superior Court of the District of Columbia. The employee was fired.
   She pled guilty and in December 2012 was sentenced to five years supervised
   probation, ordered to make restitution of $9,862 to Amtrak and to perform 50 hours of
   community service.

   Employee Resigned as a Result of Undisclosed Prior Criminal Convictions
   January 2013 (Investigations)

   Allegations that an employee frequently left his job site led to our discovery that the
   employee had numerous convictions for burglary and other crimes with associated
   periods of incarceration in county and state correctional facilities. The employee had not
   reported this information to the company. The employee voluntarily resigned as a
   result of the investigation.

   Customer Service Representative Violated Ethics Policy
   January 2013 (Investigations)

   We investigated allegations about a Customer Service Representative who allowed his
   girlfriend to ride the Amtrak train for free. The girlfriend provided us with a
   photograph and text messages showing that the employee was engaged in sexually
   explicit actions while at his Amtrak work station. The employee was terminated.
   Former Ticket Clerk Charged with Insurance Fraud
   January 2013 (Investigations)

   Investigation of a former Amtrak ticket clerk led to her being charged with extensive
   disability insurance fraud in San Diego Superior Court. The former employee submitted
   claims to several insurance companies totaling $777,768 and she received $19,094 in
   sickness benefits from the Railroad Retirement Board. The former employee was found
   guilty on 29 criminal counts including insurance fraud, tax evasion and false claims


   18       Amtrak Office of Inspector General | Semiannual Report to Congress, Number 47 | October 1, 2012–March 31, 2013
                                                                                          Significant Activities



submitted to the Railroad Retirement Board. She failed to appear for sentencing and the
court issued a bench warrant for her arrest. She is presently a fugitive.
Employee Violates Standards of Excellence Policy
February 2013 (Investigations)

Our investigation disclosed that an individual used a false social security number to
obtain employment as an Assistant Conductor. We also determined that the employee
falsely represented herself as a United States citizen and that the social security number
she used for her employment application was not valid. The employee voluntarily
resigned after being formally charged with violating Amtrak’s Standards of Excellence
Policy

Employee Terminated for Not Disclosing Federal Criminal Conviction
March 2013 (Investigation)

An Amtrak trackman, who was previously employed by the U.S. Department of State,
was under investigation by the Department Bureau of Diplomatic Security for stealing
personal identification information from a passport database and providing the
information to a credit card fraud ring. The employee pled guilty to the charges and
was sentenced to 30 months confinement and ordered to pay restitution of $71,774. In
the process of cooperating with a State Department investigation, we determined that
an individual, subsequently employed by Amtrak, did not disclose on his employment
application his federal criminal conviction or several other unrelated state court
convictions. He is currently incarcerated. The trackman’s employment was terminated
with a notation that he is not eligible for rehire.

Administrative Charges Pending for Assistant Conductor for Drug Use
March 2013 (Investigations)

We investigated allegations that an Assistant Conductor was using illegal drugs while
on duty and that he stole Amtrak property to support his drug addiction. Our
preliminary investigation disclosed that the individual had several other convictions on
drug and theft charges that occurred prior to and during his Amtrak tenure. The
individual never disclosed these convictions on his employment application as
required. We provided that information to management. The individual was taken out
of service and administrative charges are pending.

      Amtrak Office of Inspector General | Semiannual Report to Congress, Number 47 | October 1, 2012–March 31, 2013   |   19
Significant Activities



   Management of Overtime: Best Practice Controls Can Help in Developing Needed
   Policies and Procedures (Audit Report No. OIG-A-2013-009, March 26, 2013)

   Amtrak has started to focus management attention on improving controls over the
   approval and use of overtime. However, much work remains to be done, and current
   management controls over the approval and oversight of overtime are inadequate. This
   situation leaves the company highly vulnerable to overtime fraud and abuse.
   Key results of our work show:

         Overtime paid in calendar year 2012 compared with calendar year 2011
         decreased from about $201 million to $163 million. Overtime control procedures
         are ad hoc in nature and vary among departments.

         According to a senior Amtrak official, an executive oversight group was
         established to develop procedures for employees who annually were paid more
         than $35,000 in overtime and for overtime controls in general.

         In March 2013, Amtrak reported to Congress that 703 employees received
         waivers to the legislative cap in calendar year 2012. However, procedures have
         not been developed for documenting and supporting these waivers.

         In September 2012, we reported on a significant case of overtime fraud and abuse
         within the Engineering Department that likely involved losses of over $100,000.
         The case also showed a breakdown in supervisory management controls.

   Addressing this long-standing issue requires new approaches to policies and
   procedures and our report identified selected best practice time and attendance controls
   and risk mitigation approaches. We recommended that these practices and approaches
   be incorporated into the policies and procedures that are being developed for
   supporting the legislative cap overtime waiver and management of overtime in general.
   Amtrak’s Vice President, Operations, and Acting Chief Financial Officer provided
   comments on a draft of this report and concurred with our recommendations.




   20       Amtrak Office of Inspector General | Semiannual Report to Congress, Number 47 | October 1, 2012–March 31, 2013
                                                                                          Significant Activities




On-going Work—Human Capital Management
Employee Illegally Initiated Inappropriate Social Media Contact
March 2013 (Investigations)
We reported to Amtrak management on an investigation into the activities of an
Amtrak employee who initiated an inappropriate social media contact with a fourteen-
year old Amtrak passenger. The Amtrak employee was taken out of service and
administrative actions are pending. The investigation is ongoing.

Safety and Security
Railroad Safety: Amtrak Has Made Progress in Implementing Positive Train Control,
but Significant Challenges Remain (Evaluation Report No. OIG-E-2013-003, December 20,
2012)

Amtrak is attempting to mitigate the risks posed by current challenges to positive train
control implementation in various ways, but overcoming some of these challenges by
the end of 2015 will require increased attention and emphasis. The four most significant
challenges are (1) acquiring radio frequency spectrum along the northeast corridor in a
timely, cost-effective, and technically adequate manner; (2) developing complete and
reliable cost estimates and budgeting for those estimated costs to attempt to ensure the
availability of adequate funding; (3) obtaining timely Federal Railroad Administration
approval of planned upgrades to Amtrak’s Advanced Civil Speed Enforcement System
on the northeast corridor; and (4) mitigating the potential effect on Amtrak’s
implementation of positive train control due to delays in the freight railroads’
development of Interoperable-Electronic Train Management System.

While formidable in and of themselves, these four challenges are interrelated;
successfully addressing them will require a well-coordinated and integrated effort
across several Amtrak departments in order to implement positive train control by the
deadline and achieve the safety benefits derived from positive train control systems
envisioned in Rail Safety Improvement Act of 2008. We made eight specific
recommendations to improve the management of positive train control implementation.
Amtrak’s Vice President, Operations, provided us with comments on a draft of this
report wherein he concurred with all of our recommendations.

      Amtrak Office of Inspector General | Semiannual Report to Congress, Number 47 | October 1, 2012–March 31, 2013   |   21
Significant Activities



   Mishandling of Personnel Actions Information
   January 2013 (Investigations)

   We reported to management the results of our investigation of mishandling of
   confidential personnel disciplinary actions and employee personal identity information.
   We made two specific policy recommendations that are currently under consideration
   by Amtrak management.

   Abuse of Vehicle Privileges and Time and Attendance
   February 2013 (Investigations)

   Our investigation disclosed that an employee, who worked in a prominent leadership
   position of significant trust, was found to have abused his Amtrak vehicle privileges
   and engaged in substantial time and attendance abuse. Our investigation found that the
   employee left work early on many days to attend football practice or games while he
   was on supposed to be on duty. He also often used an Amtrak vehicle to drive to his
   coaching activities for which he received other compensation. The employee was often
   unavailable to his Amtrak subordinates who attempted to contact him for operational
   direction. He voluntarily resigned when confronted with the results of our
   investigation. Management is reviewing its policy on telework and the use of company
   vehicles.

   American Recovery and Reinvestment Act of 2009

   On-going Work
   Change Orders on ARRA Projects – Our objective is to assess the adequacy of the
   process to review and approve change orders. Specifically we will determine whether
   the amounts paid to accomplish change order work were adequately supported.

   The Use of ARRA Funds for Positive Train Control – Our objective is to identify
   whether ARRA funds used for positive train control implementation were properly
   reported to Congress.




   22      Amtrak Office of Inspector General | Semiannual Report to Congress, Number 47 | October 1, 2012–March 31, 2013
                                                                                          Significant Activities



Controls Over the Disposition of Equipment Purchased With ARRA Funds – The
objective of this audit is to assess the adequacy of controls over the disposition of
equipment such as computers, furniture, and tools purchased with ARRA funds.

Asset Management
Employee Pled Guilty to Charges of Theft
November 2012 (Investigations)

OIG investigation confirmed an Amtrak employee assigned to the Penn Coach Yard
stole multiple power tools for use in a personal business. Various items of Amtrak
property were recovered during a search warrant executed at the employee’s home. He
was dismissed from employment with Amtrak and pled guilty to charges of theft and
receipt of stolen property.

On-going Work
Amtrak’s Fleet Strategy, Version 3 – Evaluate the extent to which Amtrak has
(1) adequately determined what equipment it needs, (2) determined a cost-effective
approach to meeting its equipment needs, and (3) integrated its equipment
procurement plans with its financial plans.

Real Property Management – Our objectives are to determine (1) the effectiveness of
policies and procedures for ensuring complete and accurate real property inventories,
and (2) whether opportunities existed to reduce costs and/or increase revenues from the
use of such properties.

Fleet Utilization – The objective is to determine the extent to which Amtrak effectively
and efficiently utilizes its fleet of locomotives and passenger equipment.




      Amtrak Office of Inspector General | Semiannual Report to Congress, Number 47 | October 1, 2012–March 31, 2013   |   23
                                                                                                                Marshall, TX




24   Amtrak Office of Inspector General | Semiannual Report to Congress, Number 47 | October 1, 2012–March 31, 2013
                        Actions to Continuously Improve OIG Operations




Actions to Continuously Improve
OIG Operations
We are continually striving to improve our operations in ways that will benefit the
Congress, the Board of Directors and the
Corporation. Key actions taken include:
(1) revising our Strategic Plan, (2) passing
audit and investigations external peer
reviews, and (3) completing
transformational efforts.

Revised Strategic Plan for
Fiscal Years 2013–2017
This plan represents a revision to our
Strategic Plan for Fiscal Years (FY) 2010–
2014, issued in early 2010. Our intent in
revising the plan was to articulate our vision in the context of our overarching goal to
operate as a model Office of Inspector General and to establish goals, strategies, and
performance indicators to achieve our vision and assess our progress. The plan
supports Amtrak’s Strategic Plan (FY2011–FY2015), particularly its goal of attaining a
standard of organizational excellence.

The five strategic goals that we have established to help us achieve our vision of
operating as a model OIG are:

       Add value by producing objective, accurate, relevant, timely, substantive,
       sophisticated products that have impact.

       Consistently follow efficient, disciplined processes for audits, inspections and
       evaluations, and investigations that meet the standards of the accountability
       community and are periodically refined and improved.



      Amtrak Office of Inspector General | Semiannual Report to Congress, Number 47 | October 1, 2012–March 31, 2013   |   25
Actions to Continuously Improve OIG Operations



         Employ a highly qualified, motivated, and diverse workforce.

         Communicate openly and work professionally with, but independently from,
         Amtrak management.

         Create and maintain effective mission-support systems.

   Peer Reviews for Offices of Audits and Investigations
   OIG’s Office of Audits was the subject of a Council of the Inspectors General on
   Integrity and Efficiency (CIGIE) peer review during this reporting period by the
   Tennessee Valley Authority (TVA) OIG. TVA OIG determined the system of quality
   control for our audit function has been suitably designed and complied with to provide
   reasonable assurance of performing and reporting in conformity with applicable
   professional standards in all material respects. Accordingly, TVA OIG provided a
   “pass” rating, and no recommendations were made. The report was released on
   February 14, 2013.

   OIG’s Office of Investigations was also the subject of a peer review during this
   reporting period by the Nuclear Regulatory Commission (NRC) OIG. NRC OIG
   concluded that the system of internal safeguards and management procedures for the
   investigative function of the Amtrak OIG in effect for the year ending February 28, 2013,
   is in compliance with the quality standards established by the CIGIE and the Attorney
   General’s Guidelines. These safeguards and our procedures provide reasonable
   assurance of conforming with professional standards in the conduct of its
   investigations.

   National Academy of Public Administration
   Assessment Contributed to OIG Transformation
   We completed a comprehensive transformation effort that has positioned our office to
   function as a mainstream OIG and ultimately achieve our goal of being a model OIG.
   Prior to the appointment of the current Inspector General in November 2009, the
   Amtrak OIG was not functioning as a mainstream OIG.



   26       Amtrak Office of Inspector General | Semiannual Report to Congress, Number 47 | October 1, 2012–March 31, 2013
                        Actions to Continuously Improve OIG Operations



For example, audits were not always performed in accordance with generally accepted
government auditing standards, investigative operations had never been peer
reviewed, and the results of OIG work were not always publicly available. In many
instances, OIG inappropriately performed Amtrak management functions and failed to
conduct activities traditionally performed by other OIGs such as overseeing the audit of
Amtrak’s financial statements. In addition, Amtrak officials inappropriately controlled
OIG hiring decisions and had unfettered access to all OIG email accounts.

The current Inspector General initiated a transformation effort during FY 2010, with a
goal of taking actions that would ultimately establish the office as a model OIG. That
effort was a complex and challenging undertaking as it required a change to an
organizational culture that had developed over 20 years. In May, 2010, the Inspector
General engaged the National Academy of Public Administration (NAPA) to assist in
the transformation by making an independent assessment of the OIG’s organization.
NAPA had previously conducted similar OIG organizational assessments. Those
engagements made NAPA uniquely qualified to assess the Amtrak OIG’s operations
and identify business process improvements to help it become first a mainstream and
ultimately a model OIG.

NAPA used an expert panel of fellows and a project team to conduct the assessment.
The fellows and team worked closely with the Inspector General to help advance the
strategic goal of becoming a model OIG by identifying the Amtrak OIG’s core
organizational strengths and weaknesses. NAPA’s methodology included soliciting
information from: OIG senior leadership and staff; Amtrak’s Board of Directors and
senior executives; and, congressional staff. The team also obtained information from
other OIGs on best practices used by their organizations to enhance operations. NAPA
provided a written report of its assessment on August 31, 2010.

The report contained observations and recommendations focused on the following
eight areas where the Amtrak OIG could enhance its operations:

      Internal Communications;
      External Communications;
      Work Planning and Prioritization;
      Quality and Timely Work Processes;

      Amtrak Office of Inspector General | Semiannual Report to Congress, Number 47 | October 1, 2012–March 31, 2013   |   27
Actions to Continuously Improve OIG Operations



         Independence;
         Policy Management and Updates;
         Human Capital Management; and
         Performance Measures.

   For each area, NAPA defined a desired future state. The report then summarized
   Amtrak OIG’s strengths and weaknesses in relation to the future state, and
   recommended immediate next steps, as well as longer term recommendations, to
   achieve that future state. Many of the report’s individual recommendations addressed
   the need to revise and improve policies and work processes to make them consistent
   with standards and best practices within the OIG community. The report clearly stated
   that becoming a model OIG would require a change in organizational culture and that
   multiple interim steps would have to occur to achieve the desired state.

   The report provided the OIG a basis for developing specific prioritized action plans to
   improve its processes, policies, and management practices. In developing actions plans,
   OIG senior leadership also considered the results of other transformation related
   reviews, including:

         internal Quality Assurance Reviews of the Offices of Investigations and Audits;
         internal reviews of the structure and staffing of all OIG component offices
         (Investigations, Inspections and Evaluations, Audits, and Administrative
         Services—now Mission Support); and
         external reviews of OIG independence mandated by the Consolidated
         Appropriations Act of 2010.

   These reviews identified issues and recommendations related to the eight areas
   discussed by NAPA. A consistent theme among the reviews was that the skill sets of
   many OIG employees did not match those required of a high-performing OIG.
   Therefore, considering the results collectively helped ensure that the plans for
   enhancing operations were comprehensive.

   The plans, completed in April 2011, were developed by teams composed of volunteers
   from the OIG’s senior leadership and staff representing a diverse cross-section of
   function, location, and tenure. The team’s multi-level and cross functional
   28      Amtrak Office of Inspector General | Semiannual Report to Congress, Number 47 | October 1, 2012–March 31, 2013
                          Actions to Continuously Improve OIG Operations



representation helped foster a common understanding of the rationale for enhancing
operations and ensured that the plans considered a wide range of perspectives in
addressing the issues. NAPA staff assisted some of the teams in developing the plans
and this in turn helped OIG staff strengthen their team building and communication
skills.

The OIG formally started implementing the plans in May 2011. However, when
practical, the OIG took many actions to improve communications, develop policies and
processes, and ensure independent operations even as the plans were being developed.
Some actions, such as addressing issues with software tools, were implemented
relatively quickly by relevant process owners. Others, such as improving the work
planning process and developing performance measures, required a concerted effort by
leaders and staff from across the organization and thus took more time to develop and
implement.

The action plans have now been implemented and the Amtrak OIG has achieved the
desired future state for each of the eight areas identified in the NAPA assessment. The
Amtrak OIG is committed to achieving its goal of operating as a model OIG and
fostering a culture of continuous operational improvement.5




5
 See the complete NAPA report at http://www.amtrakoig.gov/sites/default/files/reports/napa_report_oig-sp-
2013-005.pdf


        Amtrak Office of Inspector General | Semiannual Report to Congress, Number 47 | October 1, 2012–March 31, 2013   |   29
                                                                                                            Williamsburg, VA




30   Amtrak Office of Inspector General | Semiannual Report to Congress, Number 47 | October 1, 2012–March 31, 2013
                                                                                                 OIG Organization




OIG Organization
The OIG headquarters is based in Washington, DC, with field offices, located in Boston,
Chicago, Los Angeles, and Philadelphia.




The Inspector General provides policy direction and leadership for Amtrak’s OIG and
serves as an independent voice to the Board of Directors and the Congress by
identifying opportunities and promoting solutions for improving the company’s
programs and operations, while preventing and detecting fraud, waste, and abuse. The
Deputy Inspector General assists the Inspector General in developing and
implementing the OIG’s diverse audit, inspection, evaluation, investigative, legal, and
mission support operations.




      Amtrak Office of Inspector General | Semiannual Report to Congress, Number 47 | October 1, 2012–March 31, 2013   |   31
OIG Organization



   Audits. The Office of Audits conducts independent and objective performance and
   financial audits across the spectrum of Amtrak’s support and operational activities. It
   produces reports on those activities aimed at improving Amtrak’s economy, efficiency,
   and effectiveness, while seeking to detect and prevent fraud, waste, and abuse.

   Inspections and Evaluations. The Office of Inspections and Evaluations conducts
   independent and objective evaluations of Amtrak programs and operations to identify
   opportunities to improve cost efficiency and effectiveness, and the overall quality of
   service delivery throughout Amtrak.

   Investigations. The Office of Investigations pursues allegations of fraud, waste, abuse,
   and misconduct that could affect Amtrak’s programs, operations, assets, and other
   resources. Investigative findings are referred to the Department of Justice for criminal
   prosecution or civil litigation, or to Amtrak management for administrative action. The
   office develops recommendations to reduce Amtrak’s vulnerability to criminal activity.

   General Counsel. The General Counsel provides legal assistance and advice to OIG
   senior management and supports audits, evaluations, special reviews, and
   investigations. Counsel coordinates with outside attorneys, including local and federal
   agencies and law enforcement attorneys, and appears in court on behalf of the OIG and
   its employees.

   Mission Support. The Office of Mission Support provides financial management,
   procurement, human capital management, administrative, information technology, and
   communications expertise to support OIG operations.

   Quality Assurance and Internal Affairs. The Office of Quality Assurance and Internal
   Affairs provides guidance, monitors the system of quality control, and conducts
   inquiries into allegations of misconduct by or involving OIG employees.




   32       Amtrak Office of Inspector General | Semiannual Report to Congress, Number 47 | October 1, 2012–March 31, 2013
                                                                                  San Luis Obispo, CA




                                                                                 San Luis Obispo, CA




Amtrak Office of Inspector General | Semiannual Report to Congress, Number 47 | October 1, 2012–March 31, 2013   |   33
  Appendix 1


            Appendix 1                           Fiscal Year 2013 Performance
                                                 Measures (10/1/2012 – 3/31/2013)
           Audit/Evaluation Results                                                         Investigative Results
Reports/Evaluations Issued                                     10
                                                                a            Financial Impact
Costs Questioned/Unsupported/Funds to                 $8,331,610             Recoveries/Restitution                                      $9,862
Be Put to Better Use
                                                                             Cost Avoidance                                            $875,000
Management Decisions to                                $8,331,610
Seek Recoveries                                                              Cases Opened
Recoveries (Audits)                                              $—          Major Misconduct and General Crimes                            29
                                                                             Claims Fraud                                                    7
                                                                             Healthcare Fraud                                                2
                                                                             Contract and Procurement Fraud                                  7

                 Advisory Functions                                          Judicial and Administrative Actions
       b                                                                     Arrests                                                         3
FOIA Requests Received                                              8
                                                                             Indictments                                                     1
FOIA Requests Processed                                             3        Convictions                                                     3
Referred to Amtrak                                                  5        Criminal Referrals Accepted                                    19
Response Pending                                                    1        Criminal Referral Declined                                      7
FOIA Appeals Received                                              —         Administrative Actions                                         12
FOIA Appeals Processed                                             —         Investigative Workload
Legislation Reviewed                                                2        Cases Open on 10/1/2012                                        66
Regulations Reviewed                                               —         Investigations Opened                                          45
                                                                             Investigations Closed                                          20
                                                                             Cases Open on 3/31/2013                                        91
                                                                             Hotline Contacts/Referrals
                                                                             Sent to Amtrak Management                                     109
                                                                             Requests for Assistance from Law                                2
                                                                             Enforcement Agencies
                                                                             Preliminary Investigation Opened                                8
                                                                             Customer Complaint                                             17
                                                                             No Action Warranted                                            17




  a
   Not included in the total amount is the questioned costs identified in Report No. OIG-A-2013-002, Acela Car Purchase:
  Questioned Costs Identified in Price Proposal (12/4/2012). While significant questioned costs were identified in this report,
  the amount is proprietary.
  b
      Freedom of Information Act.




            34        Amtrak Office of Inspector General | Semiannual Report to Congress, Number 47 | October 1, 2012–March 31, 2013
                                                                                                                    Appendix 2


Appendix 2                             Questioned Costs (Audits)
                                       (10/1/2012 – 3/31/2013)

                     Audit Reports Issued with Questioned Costs
                                                                                               Questioned                    Unsupported
Category                                                               Number                       Costs                         Costs
A. For which no management decision                                             —                            $—                       $—
   has been made
   by the commencement of the reporting
   period
                                                                                                                a
B. Reports issued during the reporting                                           7                 8,322,363                         9,247
   period
Subtotals (A+B)                                                                  7                  8,322,363                        9,247

Less
C. For which a management decision
   was made during the reporting period
   (i)     dollar value of                                                       7                  8,322,363                        9,247
           recommendations that were
           agreed to by management
   (ii)    dollar value of                                                      —                             —                         —
           recommendations that were
           not agreed to by management
D. For which no management decision                                             —                             —                         —
   has been made by the end of the
   reporting period
1
  Report No. OIG-A-2013-002, Acela Car Purchase: Questioned Costs Identified in Price Proposal, (12/4/2012),
identified significant questioned costs, however, the amount is proprietary.




        Amtrak Office of Inspector General | Semiannual Report to Congress, Number 47 | October 1, 2012–March 31, 2013   |      35
Appendix 3


   Appendix 3                            Funds Put To Better Use (Audits)
                                         (10/1/2012 – 3/31/2013)

        Audit Reports Issued with Funds to be Put to Better Use
        Category                                                                    Number                     Dollar Value
      A. For which no management decision                                                     —                                $—
   B.    has been made by the commencement of
         the reporting period
      B. Reports issued during the reporting period                                           —                                —
      Subtotals (A+B)                                                                         —                                —

        Less
        C. For which a management decision was
            made during the reporting period
           (i) dollar value of recommendations that                                           —                                —
                were agreed to by management
           (ii) dollar value of recommendations that                                          —                                —
                were not agreed to by management
        D. For which no management decision                                                   —                                —
            has been made by the end of the
            reporting period




   36         Amtrak Office of Inspector General | Semiannual Report to Congress, Number 47 | October 1, 2012–March 31, 2013
                                                                                                                        Appendix 4


      Appendix 4                             Audit and Evaluation Reports and
                                             Testimony (10/1/2012 – 3/31/2013)
                         Listing of Issued Audit/Evaluation Reports
                                        and Testimony
                                                                                                                                         Funds
                                                                                                                                          to be
                                                                                                                                         Put to
Date         Report                                                Focus                Questioned             Unsupported               Better
Issued       Number          Report Title                          Area                      Costs                   Costs                 Use
11/28/2012   OIG-T-          Amtrak Improvement                    Governance                          $—                          $—        $—
             2013-001        Initiatives: Sustained
                             Attention and Effective
                             Implementation Keys to
                             Success
                                                                                                          a
12/4/2012    OIG-A-          Acela Car Purchase:                   Acquisition                         —                           —         —
             2013-002        Questioned Costs                      and
                             Identified in Price Proposal          Procurement
12/20/2012   OIG-E-          Railroad Safety: Amtrak               Safety and                           —                          —         —
             2013-003        Has Made Progress in                  Security
                             Implementing Positive
                             Train Control, but
                             Significant Challenges
                             Remain
2/1/2013     OIG-A-          Quality Control Review:               Governance                           —                          —         —
             2013-004        Amtrak’s Independent
                             Public Accountant Met
                             Applicable Auditing
                             Standards for the Fiscal
                             Year 2012 Audit of the
                             Consolidated Financial
                             Statements
2/15/2013    OIG-A-          Amtrak Invoice Review:                Train                       2,115,440                           —         —
             2013-006        Undetected Inaccuracies               Operations
                             Resulted in Overpayments              and Business
                             (BNSF)                                Management
3/13/2013    OIG-A-          Amtrak Invoice Review:                Train                       1,205,626                           —         —
             2013-007        Internal Control                      Operations
                             Weaknesses Lead to                    and Business
                             Overpayments (Southern                Management
                             Pacific)
3/26/2013    OIG-A-          Amtrak Invoice Review:                Train                       1,437,311                           —         —
             2013-008        Internal Control                      Operations
                             Weaknesses Lead to                    and Business
                             Overpayments (BNSF)                   Management
3/26/2013    OIG-A-          Management of Overtime:               Human                                —                          —         —
             2013-009        Best Practice Controls Can            Capital
                             Help in Developing Needed             Management
                             Policies and Procedures




              Amtrak Office of Inspector General | Semiannual Report to Congress, Number 47 | October 1, 2012–March 31, 2013   |        37
    Appendix 4


                             Listing of Issued Audit/Evaluation Reports
                                            and Testimony
                                                                                                                                           Funds
                                                                                                                                            to be
                                                                                                                                           Put to
Date             Report                                                Focus                Questioned             Unsupported             Better
Issued           Number          Report Title                          Area                      Costs                   Costs               Use
3/27/2013        OIG-A-          Amtrak Invoice Review:                Train                       1,223,028                           —       —
                 2013-010        Internal Control                      Operations
                                 Weaknesses Lead to                    and Business
                                 Overpayments (Metro                   Management
                                 North)
3/27/2013        OIG-A-          Audit of Grant Agreement:             Governance                       2,098                     9,247        —
                 2013-012        Next Generation
                                 Equipment Committee
                                 Materially Complied with
                                 Terms of the Grant
                                 Agreement
3/28/2013        OIG-A-          Amtrak Invoice Review:                       Train                2,338,860                           —       —
                 2013-011        Internal Control                        Operations
                                 Weaknesses Lead to                    and Business
                                 Overpayments (Union                   Management
                                 Pacific)
        Total                                                                                  $8,322,363                      $9,247         $—
a
    Significant questioned costs were identified in this report, however, the amount is proprietary.




                                Ongoing Audit and Evaluation Projects
                Project Status                                                                            Number of Projects
                Audit and Evaluation Projects In-process, as of 10/1/2012                                                 17
                Projects Postponed or Canceled                                                                             1
                Audit and Evaluation Projects Started Since 10/1/2012                                                      8
                Audit and Evaluation Reports Issued Since 10/1/2012                                                       10
                Audit and Evaluation Projects In-process, as of 3/31/2013                                                 14




          38          Amtrak Office of Inspector General | Semiannual Report to Congress, Number 47 | October 1, 2012–March 31, 2013
                                                                                                                Appendix 5


Appendix 5                           Recommendations for Which
                                     Corrective Action Not Complete
                                     (Audits)
  Previous Audit Report Recommendations for Which Corrective
                 Action Has Not Been Completed
                                                                                                                           Funds to be
                                       Report                            Questioned Unsupported                                 Put to
Audit Report                           Number/Date                            Costs       Costs                             Better Use
Railroad Invoice Review:               506-2001/                            $125,957        $—                                     $—
SPCSL Report 1 of 4                    August 3, 2001
Railroad Invoice Review:               507-2001/                                 153,766                         —                  —
SPCSL Report 2 of 4                    August 31, 2001
Railroad Invoice Review:               508-2001/                                 140,377                         —                  —
SPCSL Report 3 of 4                    September 12, 2001
Railroad Invoice Review:               509-2001/                                 282,957                          —                 —
SPCSL Report 4 of 4                    September 21, 2001
Host RRCA and Operations               401-2008/                                         —                        —                 —
Management Controls                    August 21, 2008
Strategic Asset                        105-2010/                                         —                        —                 —
Management Program                     January 14, 2011
Controls Design Is
Generally Sound, But
Improvements Can Be
Made
On-Time-Performance                    403-2010/                                 519,932                          —                 —
Incentives: Inaccurate                 April 21, 2011
Invoices Were Paid Due to
Long-standing Weaknesses
in Amtrak's Invoice-Review
Process
American Recovery and                  908-2010/                                         —                        —           1,400,000
Reinvestment Act:                      June 22, 2011
Infrastructure Improvements
Achieved but Less than
Planned
Americans with Disabilities            109-2010/                                         —                        —                 —
Act: Leadership Needed to              September 29, 2011
Help Ensure That Stations
Served By Amtrak Are
Compliant



      Amtrak Office of Inspector General | Semiannual Report to Congress, Number 47 | October 1, 2012–March 31, 2013   |       39
Appendix 5


     Previous Audit Report Recommendations for Which Corrective
                    Action Has Not Been Completed
                                                                                                                              Funds to be
                                          Report                            Questioned Unsupported                                 Put to
   Audit Report                           Number/Date                            Costs       Costs                             Better Use
   Wireless Network Security:             OIG-A-2012-003/                                   —                        —                 —
   Internal Controls Can Be               December 7, 2011
   Improved
   On-Time-Performance                    OIG-A-2012-004/                        9,151,451                           —                 —
   Incentives: Inaccurate                 February 15, 2012
   Invoices Were Paid Due to
   Weaknesses in Amtrak's
   Invoice-Review Process
   Amtrak Corporate                       OIG-A-2012-007/                                   —                        —                 —
   Governance: Implementing               March 30, 2012
   a Risk Management
   Framework is Essential to
   Achieving Amtrak's
   Strategic Goals
   On-Time-Performance                    OIG-A-2012-013                         1,430,113                           —                 —
   Incentives: Inaccurate                 June 29, 2012
   Invoices Were Paid
   Human Capital                          OIG-A-2012-014                                    —                        —                 —
   Management: Weaknesses                 July 19, 2012
   in Hiring Practices Result in
   Waste and Operational Risk
   Claims Program: Use of                 OIG-A-2012-016                                    —                        —                 —
   Best Practices Would                   August 14, 2012
   Strengthen Management
   Controls
   Amtrak Invoice Review:                 OIG-A-2012-019                         3,473,737                           —                 —
   Undetected Errors Resulted             September 5, 2012
   in Overpayments
   Food and Beverage                      OIG-A-2012-020                                    —                        —                 —
   Service: Initiatives to Help           September 7, 2012
   Reduce Direct Operating
   Losses Can Be Enhanced
   by Overall Plan
   American Recovery and                  OIG-A-2012-021                         1,200,000                           —                 —
   Reinvestment Act: Some                 September 21, 2012
   Questioned Invoice
   Charges and Minimal
   Benefit from Duplicative
   Invoice-Review Process




   40        Amtrak Office of Inspector General | Semiannual Report to Congress, Number 47 | October 1, 2012–March 31, 2013
                                                                                                                Appendix 5


 Previous Audit Report Recommendations for Which Corrective
                Action Has Not Been Completed
                                                                                                                           Funds to be
                                       Report                            Questioned Unsupported                                 Put to
Audit Report                           Number/Date                            Costs       Costs                             Better Use
Annual Financial Statement OIG-A-2012-017                                                —                        —                 —
Audits: Observations for   September 27, 2012
Improving Oversight of the
Independent Public
Accountant
                    TOTAL                                                 $16,478,290                           $—           $1,400,000




      Amtrak Office of Inspector General | Semiannual Report to Congress, Number 47 | October 1, 2012–March 31, 2013   |       41
Appendix 6


   Appendix 6                           Recommendations for Which
                                        Corrective Action Not Complete
                                        (Evaluations)
        Previous Evaluation Reports’ Recommendations for Which
               Corrective Action Has Not Been Completed

                                                                                                                  Estimated Annual
                                           Report Number/                      Estimated Annual                    Savings Already
 Evaluation Report                         Date                                        Savingsa                           Achieved
Amtrak Mechanical Maintenance              E-05-04/                                      $100 million+                        $38 million
Operations                                 September 6, 2005
Amtrak Fleet Planning Process              E-06-02/                                          28 million+                        4 million
                                           April 6, 2006
Facility Maintenance Program               E-06-04/                                                      —                            —
                                           August 24, 2006
Human Capital Management                   E-09-03/                                          23 million+                              —
                                           May 15, 2009
Amtrak’s Infrastructure                    E-09-05/                                          50 million+                              —
Maintenance Program                        September 29, 2009
Training and Employee                      E-09-06/                                             8 million                             —
Development                                October 26, 2009
Operation RedBlock: Actions                E-11-01/                                                      —                            —
Needed to Improve Program                  March 15, 2011
Effectiveness
Evaluation of Amtrak’s FY 2010             E-11-02/                                                      —                            —
Fleet Strategy: A Commendable              March 31, 2011
High-Level Plan That Needs
Deeper Analysis and Planning
Integrationb
Food and Beverage Service:                 E-11-03/                                                      —                            —
Further Actions Needed to                  June 23, 2011
Address Revenue Losses Due to
Control Weaknesses and Gaps
Human Capital Management:                  OIG-E-2012-009/                                               —                            —
Controls Over the Use of                   March 28, 2012
Temporary Management
Assignment Need Improvement




   42        Amtrak Office of Inspector General | Semiannual Report to Congress, Number 47 | October 1, 2012–March 31, 2013
                                                                                                                        Appendix 6


          Previous Evaluation Reports’ Recommendations for Which
                 Corrective Action Has Not Been Completed

                                                                                                                       Estimated Annual
                                                Report Number/                      Estimated Annual                    Savings Already
Evaluation Report                               Date                                        Savingsa                           Achieved
Mechanical Maintenance:                         OIG-E-2012-008/                                               —                              —
Improved Practices Have                         May 21, 2012
Significantly Enhanced Acela
Equipment Performance and
Could Benefit Performance of
Equipment Company-widec
Strategic Asset Management                      OIG-E-2012-012/                                               —                              —
Program: Opportunities to                       May 31, 2012
Improve Implementation and
Lessons Learned
Railroad Safety: Amtrak is Not                  OIG-E-2012-023/                                               —                              —
Adequately Addressing Rising                    September 27, 2012
Drug and Alcohol Use by
Employees in Safety-Sensitive
Positions
 TOTAL                                                                                     $209 million+                           $42 million+
   a
       Estimated savings based on benchmarking against other organizations
   b
    Not included in the total amount are the funds to be put to better use identified in Report E-11-02 (March 31,
   2011). Implementing the recommendations in this report would allow Amtrak to reduce its fleet requirements by
   53 cars and 25 locomotives over the 30-year planning period in Amtrak’s Fleet Strategy, resulting in a potential
   reduction of over $520 million in procurement and overhaul costs over the lives of these additional pieces of
   equipment. Additionally, implementing the report recommendation to replace its single-level cars with multi-level
   cars would result in the additional reduction of $174 million to $679 million in procurement and overhaul costs
   over the lives of the equipment.
   c
    Not included in the total amount are the funds to be put to better use identified in Report No. OIG-E-2012-008
   (May 21, 2012). Implementing the recommendations in this report could allow Amtrak to reduce its fleet
   requirements by 120 cars and 45 locomotives, resulting in a potential savings of almost $600 million in fleet
   procurement costs over the next 15 years. However, these savings do not account for any additional costs
   potentially required to achieve this improved level of equipment availability.




              Amtrak Office of Inspector General | Semiannual Report to Congress, Number 47 | October 1, 2012–March 31, 2013   |       43
Appendix 7


   Appendix 7                          Review of Legislation,
                                       Regulations, and Major Policies

   Section 4(a) of the Inspector General Act of 1978, as amended, provides that the
   Inspector General shall review existing and proposed legislation and regulations
   relating to programs and operations of such establishment. Also to make
   recommendations in the semiannual reports concerning the impact of such legislation
   or regulations on the economy and efficiency in the administration of such programs
   and operations administered or financed by such establishment or the prevention and
   detection of fraud and abuse in such programs and operations.

   In addition, we continued to work with Congress to ensure that taxpayer funds
   provided to Amtrak are protected by law from fraud, waste, and abuse. In 2011, as part
   of our efforts to enhance our investigative and operational tools, we began discussions
   with Congress and submitted proposed legislation related to our operations. However,
   the OIG’s proposed legislative provisions which were added to the text of the House
   and Senate versions of the surface transportation bill (H.R. 7, S. 1813), were not included
   in the final version that was signed into law on July 6, 2012.

   As a result, we will continue to work with Congress to enact these important legislative
   provisions into law. These provisions would,

          Apply certain provisions of Title 18 to Amtrak and our office to ensure that the
          federal funding Amtrak receives is protected from fraud, waste, and abuse;

          Clarify that claims and statements made to Amtrak are considered claims and
          statements under the False Claims Act to ensure that our office has the necessary
          tools to protect the government and taxpayer dollars from fraud;

          Extend qualified immunity to our office personnel to ensure that performance of
          their statutory duties is not hindered by the threat of litigation and liability; and

          Authorize our office to take advantage of the General Services Administration’s
          programs designed to conserve federal resources, reduce expenses, and increase
          efficient operations.



   44       Amtrak Office of Inspector General | Semiannual Report to Congress, Number 47 | October 1, 2012–March 31, 2013
                                                                                                                Appendix 7


These proposed provisions remain essential to protecting Amtrak from fraud, waste,
and abuse and improving our operations.




      Amtrak Office of Inspector General | Semiannual Report to Congress, Number 47 | October 1, 2012–March 31, 2013   |   45
Appendix 8


   Appendix 8                          Peer Review Results

   The Dodd–Frank Wall Street Reform and Consumer Protection Act (P. L. 111–203, July 21,
   2010) requires each Office of Inspector General (OIG) to include in its Semiannual Report
   to Congress the results of any peer review conducted by another OIG during the
   reporting period, or—if no peer review was conducted—a statement identifying the
   date of the last peer review. Also required is a list of all peer reviews conducted by the
   OIG of another OIG, and the status of any recommendations made to or by the OIG.

   OIG’s Office of Audits was the subject of a Council of the Inspectors General on
   Integrity and Efficiency (CIGIE) peer review during this reporting period by the
   Tennessee Valley Authority (TVA) OIG. TVA OIG determined the system of quality
   control for our audit function has been suitably designed and complied with to provide
   reasonable assurance of performing and reporting in conformity with applicable
   professional standards in all material respects. Accordingly, TVA OIG provided a
   “pass” rating, and no recommendations were made. The report was released on
   February 14, 2013.

   OIG’s Office of Investigations was also the subject of a peer review during this
   reporting period by the Nuclear Regulatory Commission (NRC) OIG. NRC OIG
   concluded that the system of internal safeguards and management procedures for the
   investigative function of the Amtrak OIG in effect for the year ending February 28, 2013,
   is in compliance with the quality standards established by the CIGIE and the Attorney
   General’s Guidelines. These safeguards and our procedures provide reasonable
   assurance of conforming to professional standards in the conduct of its investigations.

   OIG is currently scheduled to conduct a CIGIE peer review of the Department of
   Interior OIG’s audit organization for the year ending September 30, 2013.




   46       Amtrak Office of Inspector General | Semiannual Report to Congress, Number 47 | October 1, 2012–March 31, 2013
                                                                                                                     Appendix 9


Appendix 9                                Glossary of Terms, Acronyms, and
                                          Abbreviations6

Management Decision—The evaluation by management of the findings and
recommendations included in an audit report and the issuance of a final decision by
management concerning its response to such findings and recommendations, including
actions that management concludes are necessary.
Questioned Cost — A cost that is questioned by the Office of Inspector General (OIG)
because of (1) alleged violation of a provision of a law, regulation, contract, grant,
cooperative agreement, or other agreement or document governing the expenditure of
funds; (2) a finding that, at the time of the audit, such cost is not supported by adequate
documentation; or (3) a finding that the expenditure of funds for the intended purpose
is unnecessary or unreasonable.
Recommendation that Funds Be Put to Better Use— A recommendation by the OIG
that funds could be more efficiently used if management took actions to implement and
complete the recommendation, including (1) reductions in outlays; (2) deobligation of
funds from programs or operations; (3) withdrawal of interest subsidy costs on loans or
loan guarantees, insurance, or bonds; (4) costs not incurred by implementing
recommended improvements related to the operations of the establishment, a
contractor, or grantee; (5) avoidance of unnecessary expenditures noted in pre-award
reviews of contract or grant agreements; or (6) any other savings that are specifically
identified. (Note: Dollar amounts identified in this category may not always allow for
direct budgetary actions but generally allow the agency to use the amounts more
effectively in the accomplishment of program objectives.)
Unsupported Cost—An unsupported cost is a cost that is questioned by the OIG
because the OIG found that, at the time of the audit, the cost was not supported by
adequate documentation.




6
    All definitions are from the Inspector General Act of 1978, as amended.
           Amtrak Office of Inspector General | Semiannual Report to Congress, Number 47 | October 1, 2012–March 31, 2013   |   47
Appendix 9


   Acronyms and Abbreviations

   ARRA                     American Recovery and Reinvestment Act of 2009
   CIGIE                    Counsel of Inspectors General on Integrity and Efficiency
   FY                       Fiscal Year
   NAPA                     National Academy of Public Administration
   NRC                      Nuclear Regulatory Commission
   OIG                      Office of Inspector General
   TVA                      Tennessee Valley Authority




   48      Amtrak Office of Inspector General | Semiannual Report to Congress, Number 47 | October 1, 2012–March 31, 2013
                                                                                                                 Appendix 10


Appendix 10                              Reporting Requirements Index
Topic/Section          Reporting Requirement                                                                                   Page
4(a)(2)                Review of Legislation and Regulations                                                                     44
5(a)(1)                Significant Problems, Abuses, and Deficiencies                                                          5–23
5(a)(2)                Recommendations for Corrective Action to Significant Problems                                           5–23
5(a)(3)                Previous Reports’ Recommendations for Which Corrective Action Has                                       39–43
                        Not Been Completed
5(a)(4)                Matters Referred to Prosecutive Authorities                                                               34
5(a)(5)                Information Assistance Refused or Not Provided                                                           N/A
5(a)(6)                Audit Reports Issued in This Reporting Period                                                           37–38
5(a)(7)                Summary of Significant Reports                                                                          5–23
5(a)(8)                Audit Reports with Questioned Costs                                                                       35
5(a)(9)                Audit Reports with Recommendations That Funds Be Put to Better                                            36
                        Use
5(a)(10)               Previous Audit Reports Issued with No Management Decision Made                                          35–36
                        by End of This Reporting Period
5(a)(11)               Significant Revised Management Decisions                                                                 N/A
5(a)(12)               Significant Management Decisions with Which the OIG is in                                                N/A
                        Disagreement
5(a)(13)               Federal Financial Management Improvement Act-related Reporting                                           N/A
5(a)(14–16)            Peer Review Results                                                                                       46




          Amtrak Office of Inspector General | Semiannual Report to Congress, Number 47 | October 1, 2012–March 31, 2013   |     49
             OIG MISSION AND CONTACT INFORMATION
Amtrak OIG’s Mission                      The Amtrak OIG’s mission is to provide independent,
                                          objective oversight of Amtrak’s programs and operations
                                          through audits, inspections, evaluations, and investigations
                                          focused on recommending improvements to Amtrak’s
                                          economy, efficiency, and effectiveness; preventing and
                                          detecting fraud, waste, and abuse; and providing Congress,
                                          Amtrak management and Amtrak’s Board of Directors with
                                          timely information about problems and deficiencies relating to
                                          Amtrak’s programs and operations.

Obtaining Copies of OIG Available at our website: www.amtrakoig.gov.
Reports and Testimony


To Report Fraud, Waste, Report suspicious or illegal activities to the OIG Hotline
and Abuse                                (you can remain anonymous):
                                          Web:           www.amtrakoig.gov/hotline
                                          Phone:         800-468-5469


                                          Tom Howard
                                          Deputy Inspector General
                                          Mail:          Amtrak OIG
                                                         10 G Street, N.E., 3W-300
                                                         Washington, DC 20002
                                          Phone:         202-906-4561
                                          Email:         Tom.howard@amtrakoig.gov




50       Amtrak Office of Inspector General | Semiannual Report to Congress, Number 47 | October 1, 2012–March 31, 2013
www.amtrakoig.gov
                    National Railroad Passenger Corporation
                            Office of Inspector General
           10 G Street, NE, Suite 3W-300, Washington, DC 20002-4285
                               www.amtrakoig.gov



Amtrak is a registered service mark of the National Railroad Passenger Corporation
